NEWS
 United States Department of Justice
 U.S. Attorney, District of New Jersey
 970 Broad Street, Seventh Floor
 Newark, New Jersey 07102
Ralph J. Marra, Jr., Acting U.S. Attorney

More Information? Call the Assistant U.S. Attorney or other contact listed below to see if more
information is available.

News on the Internet: News Releases and related documents are posted at our website.
Go to: http://www.usdoj.gov/usao/nj/press/index.html


Contact:                                                        budh0622.rel
Michael Drewniak, Public Affairs Officer            FOR IMMEDIATE RELEASE
973-645-2888                                                   June 22, 2009




                Co-Founder of Charter Jet Company Admits
               Running Commercial Flights Without License
                    – Platinum Jet Crashed at Teterboro in 2005 –



                                           (More)



Public Affairs Office                                                          973-645-2888
Michael Drewniak, PAO



                http://www.usdoj.gov/usao/nj/press/index.html
NEWARK – One of the co-founders and managers of a luxury charter jet company that
operated a flight from Teterboro Airport which crashed on takeoff in 2005 pleaded guilty
today to a conspiracy to defraud charter customers and brokers, and to impede and
obstruct the FAA, admitting he and his conspirators booked and flew roughly 100 illegal
flights for more than $1 million, Acting U.S. Attorney Ralph J. Marra, Jr. announced.

Andre Budhan, 42, of Fort Lauderdale, Fla., pleaded guilty to the lead count of a 23-count
Indictment, charging him with conspiracy to commit wire fraud and to defraud the United
States, according to Assistant U.S. Attorney Scott B. McBride. Following the guilty plea,
U.S. District Judge Joseph A. Greenaway, Jr. set sentencing for Oct. 5. Budhan remains
free on a $250,000 secured bond.

The defendant faces a maximum statutory penalty of five years in prison and a fine of the
greatest of $250,000 or twice the gross gain or loss caused by his offense. In addition,
Judge Greenaway must order that Budhan pay restitution to the victims of his offense.

Budhan agreed during his plea hearing that, under the advisory U.S. Sentencing
Guidelines, he faces an actual sentencing range of between 46 and 57 months in federal
prison.

During the plea hearing, Budhan admitted that, in August 2002 he and his co-defendants,
Michael Brassington, Paul Brassington and others, started a private jet charter company
called Platinum Jet Management, which is now defunct as a result of the 2005 crash.
According to Budhan, he was a managing member of Platinum Jet from the time of its
founding until March 2005, when it went out of business. From November 2002 through
November 2003, Budhan admitted, Platinum Jet did not have an FAA-issued certificate,
otherwise known as a “Part 135 certificate,” permitting it to fly on-demand commercial
flights.

According to Budhan, despite not having a Part 135 certificate, Budhan, the Brassingtons,
co-defendant Brien McKenzie, and others agreed to operate Platinum Jet as a commercial
jet charter company, and as a result started soliciting charter flight customers for Platinum
Jet using jet charter brokers. Budhan admitted that he and his conspirators
misrepresented to those charter customers and brokers that Platinum Jet operated in
compliance with FAA rules and regulations. He further admitted that, during the one-
year period where Platinum Jet did not have a Part 135 certificate, Platinum Jet flew
nearly 100 commercial charter flights for more than $1 million in compensation.

Budhan has five co-defendants, including the Brassingtons, McKenzie, Joseph Singh, and
Francis Vieira. All five have pleaded not guilty to the charges and are scheduled for trial
before Judge Greenaway on Jan. 19.


                                                                                           2
The six defendants were all named in an Indictment unsealed on Feb. 4. For the original
press release and the Indictment, go to Feb. 4 via this link:

                      http://www.usdoj.gov/usao/nj/press/index.html

In determining the actual sentence, Judge Greenaway will consult the advisory United
States Sentencing Guidelines, which provide appropriate sentencing ranges that take into
account the severity and characteristics of the offense, the defendant’s criminal history, if
any, and other factors. The Judge, however, is not bound by those guidelines in
determining a sentence. Parole has been abolished in the federal system. Defendants
who are given custodial terms must serve nearly all that time.

Marra credited Special Agents of the Department of Transportation Office of the
Inspector General, under the direction of Inspector General Calvin L. Scovel III, and
Special Agent in Charge Ned E. Schwartz in New York, for the successful prosecution.

The government is represented by Assistant U.S. Attorney Scott B. McBride of the U.S.
Attorney's Government Fraud Unit.

                                            -end-

Defense Counsel: K. Anthony Thomas, Esq., Assistant Federal Public Defender, Newark




                                                                                            3
